SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
TLOSSEAT ON@ SID LEY.COM
AMERICA • ASIA PACIFIC

• EUROPE

RULE 33.1(h) CERTIFICATE OF COMPLIANCE
CAPITAL CASE
No. 20Alan Eugene Miller,
v.

Petitioner

Commissioner, Alabama Department of Corrections,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Tobias S. Loss-Eaton, certify
that the Petition for a Writ of Certiorari in the foregoing case contains 7,439 words,
excluding the parts of the document that are excluded by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 25, 2021.

/s/ Tobias S. Loss-Eaton
Tobias S. Loss-Eaton
Sidley Austin llp
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
tlosseaton@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

